            U.S. Department of the Interior
                Office of Inspector General

              Office of the Virgin Islands
                  Inspector General
             Government of the Virgin Islands




 Administrative Functions, Roy Lester
 Schneider Regional Medical Center,
        Government of the Virgin Islands

Report No. V-IN-VIS-0001-2007                   July 2008
                                U.S. Department of the Interior
                                       Office of Inspector General


                                   Office of the Virgin Islands
                                       Inspector General
                                   Government of the Virgin Islands


                                                                      July 28, 2008
The Honorable John P. de Jongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
St. Thomas, VI 00802

Re:          Final Audit Report Administrative Functions, Roy Lester Schneider Regional
             Medical Center, Government of the Virgin Islands
             (Report No. V-IN-VIS-0001-2007)

Dear Governor de Jongh:

        In October 2007, the Offices of Inspectors General of the U.S. Department of the
Interior (DOI) and of the Virgin Islands completed their joint audit of the Roy Lester
Schneider Regional Medical Center (Medical Center). Unfortunately, we faced an alarming
degree of secrecy and deliberate concealment of financial records that limited our ability to
complete a comprehensive review of the Medical Center’s administrative functions1. To get
the information on which we base this report, we were forced to issue subpoenas. A court
proceeding in the Superior Court of the Virgin Islands was ultimately required to enforce the
subpoenas.

        The secrecy concealed an alarming depth of mismanagement of Medical Center
funds and a complete lack of oversight of these monies by the Center’s District Governing
Board, as well as a lack of Medical Center financial viability. We list below some of the
more egregious examples, which resulted in several referrals to criminal investigators in our
respective offices.

      •    Inappropriate retirement fund payments;
      •    Compensation overpayments to Medical Center executives;
      •    Abuse of credit card privileges;
      •    Inappropriate cost reimbursements to Medical Center executives; and
      •    Underreporting of executive compensation.

       We provide six recommendations and believe their implementation is essential to
continuing health care delivery, efficient use of funding, and restoration of public trust in

1
    See Appendix 1 Audit Scope and Methodology for additional information on audit work progression
this public institution. In addition, implementation of these recommendations should vastly
improve the transparency of the Medical Center’s operations and provide for a more
informed allocation of government revenue. We are pleased that you agree with our
recommendations, as stated in your July 10, 2008 response to our draft report (Appendix 2).
We commend your decisive action to address the deficiencies in this report and your
commitment to making significant improvements in the fiscal accountability of the Medical
Center. Based on your response, we consider all of the recommendations resolved but not
implemented (Appendix 3).

       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, the monetary effect of audit
findings, actions taken to implement our audit recommendations, and recommendations that
have not been implemented. The monetary impact of the findings in this report is shown in
Appendix 4.

       Please provide a response to this report, by August 29, 2008, to both Inspectors
General. The response should provide the information requested in Appendix 3. If you
have any questions concerning this report, you may call Mr. Devaney at 202-208-5745 or
Mr. van Beverhoudt at 340-774-6426.


_________________________                   _________________________
Mr. Earl E. Devaney                         Mr. Steven van Beverhoudt
Inspector General                           Virgin Islands Inspector General
Office of Inspector General                 Office of the Virgin Islands Inspector General
U.S. Department of the Interior             2315 Kronprindsens Gade #75
1849 C Street, NW MS 4428                   Charlotte Amalie, St. Thomas
Washington, DC 20240                        Virgin Islands 00802




cc:   Amos W. Carty, Chief Executive Officer, Roy Lester Schneider Regional
      Medical Center
      Douglas W. Domenech, Acting Deputy Assistant Secretary for Insular Affairs




                                             2
CONTENTS
                   Medical Center Regulatory Overview
INTRODUCTION       and Financial Standing ................................................................1


                   Medical Center Management Fostered an Environment
RESULTS OF AUDIT   of Fiscal Irresponsibility ............................................................ 3
                   Excessive Compensation Packages ........................................... 3
                   Abusive Credit Card Usage and Questionable
                   Reimbursements ......................................................................... 8
                   Unprocessed Refunds and Overbilling....................................... 9

                   To the Governor of the Virgin Islands ......................................12
RECOMMENDATIONS    Governor’s Response and OIG Reply .......................................12

                   1.   Audit Scope and Methodology ...........................................14
APPENDICES         2.   Governor of the Virgin Islands Response ............................16
                   3.   Status of Audit Recommendations .......................................19
                   4.   Monetary Impact .................................................................. 20




                                           i
INTRODUCTION
MEDICAL CENTER   In 1999, the Virgin Islands Government Hospitals and Health
REGULATORY       Facilities Corporation was created as a public entity of the
OVERVIEW AND     Government of the Virgin Islands (GVI) to manage health care
FINANCIAL        delivery in partnership with the GVI. The corporation is
STANDING         administered by a Board of Directors consisting of fifteen members
                 representing St. Thomas, St. Croix, and St. John, Virgin Islands.
                 The corporation delegates power to two district governing boards;
                 one for the District of St. Thomas-St. John, and the other for the
                 District of St. Croix.

                 The District Governing Board for St. Thomas-St. John (District
                 Board) is comprised of eight community members who are
                 appointed by the VI Governor and confirmed by the VI Legislature
                 for 3-year terms. The District Board is responsible for overseeing
                 the operations of the Roy Lester Schneider Hospital and the
                 Charlotte Kimelman Cancer Institute on St. Thomas and the Myrah
                 Keating Smith Community Health Center on St. John. These three
                 institutions comprise the Schneider Regional Medical Center, a
                 169-bed, acute care facility accredited by the Joint Commission on
                 Accreditation of Health Care Administration and Centers for
                 Medicaid and Medicare.

                 The District Board delegates management operations to a Chief
                 Executive Officer (CEO) and holds him accountable for the
                 execution of hospital policy decisions. The CEO, the Chief
                 Operating Officer/General Counsel (COO), and the Chief Financial
                 Officer (CFO) are the key executives responsible for the day-to-
                 day operation of the Medical Center.

                 The Medical Center exists as a public entity of the GVI to preclude
                 the need for government funding through fiscal responsibility and
                 efficient management. However, it has a long-standing financial
                 deficit and reported annual operating losses, averaging
                 $25.4 million annually during the period of fiscal year 2002
                 through 2006. In an attempt to fund the Medical Center’s losses,
                 the Virgin Islands Legislature appropriated an annual average of
                 $21.8 million over the same period (see Figure 1). The
                 $21.8 million represented 37 percent of the Medical Center’s
                 revenues before grant proceeds.




                                    1
Data from VI Legislature’s budget analysis based on information presented by
the Medical Center for Fiscal Year 2007 budget hearings            Figure 1


As a public entity of the GVI relying heavily on GVI funding, the
Medical Center is required to present an annual detailed account of
its revenue and expenditures to the Executive and Legislative
branches, which use the information to make an informed decision
on the level of funding to be provided.

Medical Center employee salaries are reported via Notices of
Personnel Action (NOPA). A NOPA is the official GVI personnel
document that confirms employment and includes the amount of
salary to be paid and the position title.




                       2
RESULTS OF AUDIT
                     A breakdown of key controls resulted in a flagrant disregard for
  MEDICAL CENTER     accountability and transparency by the District Board and senior
  MANAGEMENT         executives at the Medical Center, thereby exposing the Medical
  FOSTERED AN        Center to fraud and mismanagement which resulted in a litany of
  ENVIRONMENT OF     abuses. The District Board, rather than fulfilling its public trust
  FISCAL             responsibilities, acquiesced and colluded with the Medical Center’s
  IRRESPONSIBILITY   senior executives both to divert Medical Center funds for personal
                     gain and waste Medical Center funds, all the while fostering an
                     environment of secrecy within an entity of the GVI. The District
                     Board demonstrated fiscal irresponsibility in its continual neglect
                     of the Medical Center’s poor financial standing by awarding
                     lucrative compensation packages to senior executives. The
                     Medical Center’s CFO exacerbated this irresponsibility by making
                     excess payments to the CEO above employee contract amounts.
                     The District Board then concealed the true amounts paid to these
                     executives by reporting significantly understated amounts to the
                     Executive and Legislative branches of the GVI, whose oversight
                     and scrutiny of the funding needs of the Medical Center was based
                     on faulty and misleading information. Senior executives further
                     misused Medical Center official credit cards for personal gain and
                     failed to exercise good judgment in approving credit card
                     purchases and reimbursable expenses. They also allowed
                     overpayments owed to patients and insurers and medical service
                     overbillings to help fund these fiscally irresponsible practices.
                     These conditions, taken in totality, were serious enough to warrant
                     the initiation of a criminal investigation.

                     In light of the Medical Center’s operating losses, the amounts paid
EXCESSIVE            as executive compensation, particularly to the CEO, were
COMPENSATION         excessive and fiscally irresponsible. Between 2002 and 2007, the
PACKAGES             CEO was paid $3.8 million under three employment contracts
                     laden with lucrative and questionable perquisites (perks). Of this
                     amount, $1.3 million represented payments in excess of the
                     amounts specified in the employment contracts. Overpayments
                     were also made to the CFO and COO, who between 2005 and
                     2007, were compensated at least $456,100 above their reported
                     salaries. The Medical Center’s District Board then misrepresented
                     the actual amount of compensation provided to their top executives
                     by providing inaccurate and incomplete information to the
                     Legislative and Executive branches of the GVI during the annual
                     budgetary process and by omitting all compensation decisions from
                     their board minutes.




                                         3
►CEO Hired at       On April 17, 2002, the District Board awarded a 3-year contract for
Average Annual      the services of the CEO for a total of $450,000 in salary payments
Compensation of     ($150,000 per year). The contract also provided for at least an
$197,500            additional $142,400 in perks for items such as housing allowances
                    and performance bonuses. The contract, which contained a 2-year
                    renewal option, stated that the CEO was an exempt employee of
                    the GVI employed by NOPA.

                    Although the contract’s total compensation provided for $592,400,
                    the CEO was only entitled to $557,100 based on the actual duration
                    of the contract term. However, the CEO in fact received $648,700,
                    an excess of $91,600, for extra housing allowance payments and
                    educational expenses not covered by his contract.

 ►CEO’s             More than a year before the expiration of the first contract, the
 Compensation       District Board proposed evaluating the CEO’s compensation
 Package Balloons   package relative to a peer group consisting of other semi-
 to $1.9 Million    autonomous GVI agencies. To conduct this evaluation the District
                    Board hired Clark Consulting – Healthcare Group (Clark), which
                    specializes in analyzing executives’ compensation and benefits.
                    Clark’s evaluation was based on a peer group of health care
                    organizations in the United States similar to the Medical Center in
                    size and complexity.

                    Clark warned the District Board that it would be “problematic” to
                    increase the CEO’s salary because of the Medical Center’s heavy
                    reliance on GVI subsidies. Clark recommended a compensation
                    package of $585,300 over a 2-year period, placing the CEO’s
                    salary in the 25th percentile of the national peer group. The District
                    Board, however, ignored this recommendation and opted for a
                    2-year agreement, with a 1-year renewal, worth $1,886,900, which
                    placed the CEO’s salary in the 90th percentile of the national peer
                    group.

                    The District Board’s agreement included $530,000 in base salary
                    payments ($265,000 per year) and $1,356,900 in lavish perks,
                    including a Rabbi Trust allowance (a tax deferred compensation
                    package), a signing bonus, a retention bonus, and travel for the
                    CEO’s spouse. (See Figure 2 for details.)

                    Under this employment agreement, the CEO was entitled to the full
                    $1,886,900 only if the 1-year renewal option was exercised. The
                    renewal option was not exercised; therefore, the CEO was only
                    entitled to $1,661,900 under the terms of the contract. Instead,
                    over this 2-year term the CEO actually received $2,068,300, an
                    excess of $406,400.



                                         4
 ►District Board             Rather than exercising the 1-year renewal option included in the
 Agrees to 1-Year            second agreement, the District Board again contracted with Clark
 CEO Agreement               to review the CEO’s employment compensation and benefit
 worth $1.3 Million          programs. Clark recommended that the Medical Center maintain
                             their current pay structure under the 2005 contract, which was
                             about $897,600, but warned that special cash compensation could
                             adversely affect the Medical Center’s finances and that the Medical
                             Center may in the future face public criticism if called to defend
                             the reasonableness of the CEO’s total compensation. Instead of
                             adhering to Clark’s recommendation, the District Board decided to
                             create an entirely new 1-year employment agreement for the CEO
                             valued at $1,302,500 for 2007.

“SRMC is aware that 
                             The District Board’s 1-year agreement included a salary of
any special cash             $310,000 and $992,500 in perks, including yet another signing
compensation and             bonus, as illustrated below (Figure 2).
benefit program 
provided to any 
employee of the                                 Employment Agreement Perks
hospital may draw                                 May 2005 and May 2007
attention . . . and could 
potentially adversely 
affect its finances and              Description                     2005 – 2007              2007
SRMC’s reputation. . . .                                              Agreement            Agreement
SRMC might face public 
                             Signing Bonus                                 $66,200              $77,500
censure, as well as the 
interest of the IRS in       Cost of Living Adjustment                     $26,500              $15,500
addressing the               Performance Bonus*                          $159,000               $93,000
reasonableness of [the       Housing Allowance                             $80,000              $40,000
CEO’s] total                 Retention Bonus                             $106,000                  -
compensation                 Education Allowance                           $20,000              $10,000
package.”                    Rabbi Trust Allowance                       $771,200              $722,700
                             Vacation                                      $40,800              $23,800
 ­­Clark Consulting – 
Healthcare Group’s           Spousal Travel                                $20,000              $10,000
appraisal of third CEO       Insurance                                     $67,200                 -
contract.                       Total Perks                             $1,356,900             $992,500
                             *There was no documentation of performance reviews to support performance
                             bonus payments.                                           Figure 2

                             The CEO voluntarily resigned in November 2007 before the
                             completion of the agreement and was therefore only entitled to
                             $302,900 under the terms of the agreement. Instead, the CEO was
                             actually paid $1,076,100, an excess of $773,200.

                             The Rabbi Trust perk contained in both the second and third
    ►$1.5 Million in
                             employment agreements was particularly questionable. A Rabbi
    Questionable
                             Trust is essentially an employer funded tax deferred compensation
    Rabbi Trust
                             plan similar to a 401k plan for a company’s top executives. The
    Payments
                             employer pays compensation to an independent third-party, such as
                             a bank or trust company for the ultimate benefit of the top
                             executive. In this case, however, the District Board failed to


                                                   5
                       establish the CEO’s Rabbi Trust and instead authorized payments
                       of $1,469,000 which was subsequently deposited directly into the
                       CEO’s personal accounts.

►CEO’s Excess          Over the 5-year period of the three agreements the Medical
Compensation           Center’s District Board approved payments of $2,521,900 in salary
Totaled $1.3 Million   and perks. Instead, the CEO received $3,793,100 in payments as
Over 5-Year Period     illustrated in Figure 3. These overpayments totaled $1,271,200.




                                                                            Figure 3

►Overpayments of       In August 2005, the District Board contracted with Clark to also
at least $456,100 to   perform an analysis of the total compensation and benefit programs
CFO and COO            for the Medical Center’s COO and CFO. NOPAs for both
                       executives stated that they were receiving annual salaries of
                       $80,000. Based on information the Medical Center provided to
                       Clark and 2005 tax form calculations provided to the Offices of
                       Inspectors General, it was evident that both executives received
                       payments in excess of the amount stated on their NOPAs.
                       Between 2005 and 2007 the COO and the CFO received annual
                       compensation of at least $166,000 and $146,000 respectively.
                       These overpayments amounted to $456,100 over the period. Both
                       executives also received the benefit of extra life insurance and long
                       and short term disability insurance payments totaling $96,000 in
                       2006 and 2007 that were not available to other employees at the
                       Medical Center.

                       On several occasions we asked if employment agreements or
                       contracts existed for the COO and CFO and requested copies of
                       them if they did. Although it was clear that these two executives


                                           6
                    were paid in excess of their NOPA amounts, the CFO stated that
                    there were no such agreements.

                    The Legislative and Executive branches of the GVI were not made
►Actual             aware of the magnitude of the compensation packages paid to
Compensation to     Medical Center executives. Instead, during Medical Center budget
Medical Center      hearings, the District Board significantly misrepresented the actual
Executives Hidden   amount of compensation provided to their top executives by
by District Board   providing inaccurate information to the Executive and Legislative
                    branches, leading them to believe that Medical Center executives
                    were paid only the salaries reported on their NOPAs.

                    For example, the District Board continued to represent that the
                    CEO’s annual salary was $150,000 as detailed in his original 2002
                    NOPA. By 2007, however, the CEO’s actual compensation had
                    mushroomed to a total annual salary of $1,076,100, including
                    perks. See Figure 4.




                                                                            Figure 4
                    The District Board further perpetrated the secrecy of the executive
                    compensation plans by omitting from District Board minutes, their
                    decision to award lucrative compensation packages and
                    overpayments, and the effect of those payments on the Medical
                    Center’s limited financial resources.

►No Control         This flagrant abuse occurred because of a lack of key controls over
Environment         compensation and payroll processes. In the 6 months preceding
                    the CEO’s voluntary termination, the CFO electronically
                    transferred $1,867,900 to the CEO’s personal accounts, based on
                    direct authorizations from the Chairperson of the District Board
                    and the CEO. The CFO did not have a copy of any of the



                                        7
                     employment agreements to determine whether payment amounts
                     requested by the CEO were justified. Since the CFO was the only
                     person making the electronic transfers, no one else had knowledge
                     of the total compensation being paid out. For example, the CFO
                     transferred $250,000 on May 21, 2007, $250,000 on May 24, 2007,
                     and $466,456 on May 25, 2007, for a total of $966,456 over a
                     5-day period alone based on calculations provided by the CEO
                     himself.

                     Had the District Board and Medical Center executives acted
                     according to basic business management practices, there would
                     have been transparent accountability of transactions by several
                     other people in the processing of compensation payments. Instead
                     the senior executives acted in a spirit of collusion and secrecy and
                     evaded the segregation of duties inherent in normal transaction
                     processing, which are designed to detect and prevent improper
                     transactions.

                     Top level executives also ignored the Medical Center’s weak
ABUSIVE CREDIT       financial position by their lack of oversight in determining the
CARD USAGE AND       eligibility of amounts claimed prior to approving credit card
QUESTIONABLE         purchases and reimbursable expenses. Four Medical Center
REIMBURSEMENTS       executives were allowed to incur at least $317,200 in credit card
                     charges that were unsupported, personal, or ineligible for payment
                     by the Medical Center. In addition, at least $30,400 in
                     reimbursements for expenses was paid that was ineligible or did
                     not have proper supporting documentation.
   ►Unsupported
                     We audited all credit card charges of the four Medical Center
   and Personal
                     executives from October 2004 to September 2006, totaling
   Charges
                     $500,200. Of those charges, $317,200 was unsupported by either
   Represented 63%
                     receipts or an explanation of why the charges were incurred, yet
   of Credit Card
                     they were approved for payment by either the CEO or CFO. As a
   Charges
                     result, there was little assurance that all of these charges were
                     actually legitimate Medical Center business expenses.

                     The COO incurred $31,900 in personal and ineligible charges
                     including airline tickets, airline upgrades, rental cars, meals, golf
                     outings, and charges associated with his duties at the Virgin Islands
                     Bar Association. Among the COO’s personal charges was travel
                     primarily on weekends that coincided with holidays such as
                     Christmas, Thanksgiving, and Labor Day. For example:

                        ¾ The COO incurred $1,100 in charges for travel from
                          December 24, 2004, to December 26, 2004, Christmas
                          weekend, to Orlando, Florida.



                                         8
                        ¾ The COO incurred $1,300 in charges for travel from
                          September 2, 2005, to September 6, 2005, Labor Day
                          weekend, to Ft. Lauderdale, Florida.

                        ¾ The COO incurred $1,100 in charges for travel from
                          December 23, 2005, to December 26, 2005, Christmas
                          weekend, to Miami, Florida. Among those charges were
                          tickets to the Metro Zoo.

                     We also audited $106,800 of reimbursements made to Medical
  ►$30,400 Paid in
                     Center executives over a 5-year period and found that $30,400 was
  Ineligible or
                     paid for expenses that either were not substantiated by any
  Unsupported
                     supporting documents or were ineligible for reimbursement. For
  Reimbursements
                     example:

                        ¾ The CFO was reimbursed $18,900 for moving expenses
                          although there was no written agreement in place
                          authorizing those expenditures.

                        ¾ The CFO was reimbursed $2,700 for charges relating to an
                          educational seminar in March 2004 although the training
                          occurred one month before he was hired.

                     In continuing with their fiscal irresponsibility, Medical Center
UNPROCESSED          officials failed to make a determination of the amount of refunds
REFUNDS AND          actually owed to patients and insurers, utilized refunds due to
OVERBILLING          insurers, and did not maintain proper controls over the processing
                     of refunds. In addition, Medical Center officials allowed patients
                     and insurers to be overbilled for air ambulance services and
                     allowed contractual discounts to be inappropriately applied.

  ►$8.8 Million in   Over the past five years, the Medical Center’s accounting system
  Refunds            reflected possible refunds due to patients and insurers that were
  Potentially Owed   either caused by an actual overpayment for services or by data
  and $948,100       entry errors. Rather than analyzing the amounts to determine how
  Unpaid             much were actually due to overpayments, Medical Center officials
                     allowed these possible refunds to increase to $8.8 million. Medical
                     Center officials acknowledged that it was likely that they may owe
                     patients and insurers refunds for overpayments, but claimed they
                     did not have the personnel necessary to conduct the analysis.
                     Thus, the Medical Center’s level of patient overpayments was
                     allowed to grow because all payments received, including
                     overpayments, were entered into their operating account as revenue
                     and used to support the Medical Center’s normal operating
                     expenses.




                                         9
                   Medical Center officials indicated that previously analyzed
                   potential overpayments resulted in the Medical Center confirming
                   that it owed $948,100 to private insurers. However, they were
                   unable to reimburse any of these overpayments because of “cash
                   flow problems.” The Medical Center is in the process of making
                   refunds of confirmed overpayments to patients.

►Refunds Subject   The Medical Center’s poor internal control environment in the area
to Fraud and       of processing refunds for overpayments subjected those funds to
Abuse              fraud and abuse. Employees with access to the computerized
                   accounting system could potentially issue themselves refunds
                   because refund requests were not verified for proper authorization.

                   There was no restriction on the Cashier’s Office from posting
                   refund requests independent of management’s approval because
                   the Accounts Payable Division printed refund checks based solely
                   on an electronic request from the Cashier’s Office without
                   obtaining a signed authorization for payment. Moreover, the
                   Accounts Payable Division printed checks up to $25,000 in value
                   using only the computer generated signature of the CEO, and then
                   returned the checks to the Cashier’s Office for mailing to the
                   patient or insurer. As a result, there was no assurance that refunds
                   were accurate or paid to appropriate persons.

                   In addition, the system was not set to restrict the posting of refund
                   requests to only the Cashier’s Office. We found that, as of August
                   2007, 108 accounting system users from various departments were
                   allowed to post refund requests. After the discovery, a Medical
                   Center official informed us that steps had been taken to limit
                   access to only two cashiers.

►Insurance         The Medical Center utilized the services of independent air
Companies          ambulance providers and then billed the patients or their insurers
Overbilled         for the associated charges. Our review of 12 instances totaling
                   $249,100, where the Medical Center billed insurers and patients for
                   independent air ambulance services, revealed that the Medical
                   Center had a pattern of overbilling for those services. In 10 of the
                   12 instances reviewed, the Medical Center overbilled by charging
                   over $122,200 more than the actual invoice amounts submitted to
                   the Medical Center by the independent ambulance suppliers. For
                   example:

                      ¾ An independent air ambulance supplier provided an invoice
                        to the Medical Center totaling $23,900. Rather than billing
                        Medicare and a secondary insurer based on the actual
                        invoice, the Medical Center overbilled the insurers by
                        nearly $40,000.


                                       10
                  ¾ An independent air ambulance supplier provided an invoice
                    to the Medical Center totaling $16,500. Rather than billing
                    the private insurer based on the actual invoice, the Medical
                    Center overbilled the private insurer by approximately
                    $10,000.

               In determining why the pattern of overbilling was allowed to
               continue for independent air ambulance services, we were told by
               Medical Center employees that they were instructed to inflate
               claims by the Medical Center’s Director of Patient Accounts and
               one of their consultants. The Director instead attributed the
               overbillings to the utilization of incorrect medical procedure codes
               by employees. She also stated that the employees did not possess
               adequate education to process claims for air ambulance charges.

►Contractual   The Medical Center was contractually obligated to extend
Discounts      discounts to patients covered by two private insurers at rates of 10
Unapplied      to 28 percent of the overall bill. We reviewed 20 patient accounts
               and found 13 instances where contractual discounts were either not
               applied or were applied incorrectly. As a result, patients may have
               been billed for amounts greater than they should have owed. In
               some instances, the Medical Center’s accounting system showed
               that patients owed for services when they may have been entitled
               to a refund. Other than by manually reviewing each account,
               Medical Center staff did not have any way of determining which
               accounts had not been appropriately discounted.




                                   11
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR
OF THE VIRGIN        1. Take immediate action to evaluate the performance of
ISLANDS                 individual board members and remove those members who
                        have contributed to the current management and financial
                        crisis by failing to live up to their fiduciary responsibilities.

                     2. Take immediate action to evaluate the performance of
                        senior management and recommend disciplinary action for
                        those members who contributed to the current management
                        and financial crisis by failing to live up to their fiduciary
                        responsibilities.

                     3. Establish an independent Audit Committee which reports
                        directly to the Board and establish a requirement that
                        instances of fraud must also be referred to appropriate law
                        enforcement agencies.

                     4. Take immediate action to establish effective internal
                        controls and appropriate control structures.

                     5. Take action to recover payments and credit card charges
                        which were inappropriate or did not benefit the Medical
                        Center.

                     6. Take actions to evaluate credit balances due patients and
                        insurance providers and make refunds as appropriate.

                     In his July 10, 2008 response to our draft report (Appendix 2),
GOVERNOR’S           the Governor of the Virgin Islands concurred with our
RESPONSE AND         recommendations. The Governor stated that the reported
OFFICE OF            mismanagement and lack of transparency has exposed the
INSPECTOR            Medical Center to a loss of public confidence and damaged the
GENERAL (OIG)        reputation of the Medical Center and its Governing Board. He
REPLY                also added that the many years of outstanding work by the
                     Medical Center, its staff, management, and Board may have
                     been irrevocably damaged by the awarding of questionable
                     compensation packages which were not fully disclosed by
                     either the Board or senior management, especially in light of
                     the institution’s well-known fiscal challenges.

                     In response to our recommendations, the Governor stated that
                     based on our report and any other evidence which may arise, he


                                      12
would either dissolve the St. Thomas-St. John District Board or
replace, for cause, those Board members who have failed to
live up to their fiduciary responsibility. The newly
reconstituted District Board will evaluate the actions and
performance of senior management to take an unbiased look at
the findings of the audit, to address all deficiencies, lack of
internal controls, and possible acts of fraud or other improper
conduct. As part of his response, the Governor also provided
information showing that the Medical Center had either
initiated or was in the process of initiating plans of action to
implement each recommendation.

We are encouraged by the Governor’s concurrence with our
recommendations and the decisive actions taken to address the
deficiencies addressed in the report. We look forward to
receiving continued confirmation of this ongoing work. Based
on the Governor’s response, we consider all six
recommendations resolved but not implemented. The status of
the audit recommendations is shown in Appendix 3.




                13
Appendix 1 – Audit Scope and Methodology
                This audit was conducted as a joint initiative by the Office of the
OBJECTIVE AND   Virgin Islands Inspector General and the Department of the
SCOPE           Interior’s Office of Inspector General. The objective of the audit
                was to determine whether the Medical Center carried out its
                administrative functions, including billing, collecting accounts
                receivable, contracting, and incurring costs in accordance with
                applicable laws and regulations. However, we were limited in our
                ability to complete a comprehensive review of the Medical
                Center’s administrative function since critical records, such as
                contracts, board minutes, and transaction authorization forms were
                not made available to us during our review, and Medical Center
                executives were uncooperative to the point of concealing
                information from us. As a result, we were unable to evaluate the
                overall administrative function of the Medical Center and are
                instead reporting on those aspects for which we believe we have
                sufficient information upon which to report.

                Throughout the course of the audit, we were faced with numerous
                challenges and obstacles resulting in delays in conducting our
                audit. The Medical Center’s COO insisted that all requests for
                information be channeled through him and reviewed prior to
                auditors receiving them and that he be notified of persons being
                interviewed. As a result, the Office of the Virgin Islands Inspector
                General was forced to issue seven subpoenas for audit information
                directly to either the Chairperson of the District Board or to the
                Medical Center’s top executives. For example, our request for
                copies of the CEO’s employment agreements was made in April
                2007. However, after several attempts, it wasn’t until a subpoena
                was issued in July 2007 that the Chairperson of the District Board
                wrote that they would “reluctantly” produce copies of the CEO’s
                agreements.

                In November 2007, the Offices of Inspectors General were
                eventually forced to initiate court proceedings in the Superior
                Court of the Virgin Islands to obtain the information necessary to
                complete our audit.

                We performed our audit work from December 2006 to October
                2007. To accomplish our objective, we interviewed officials and
                reviewed financial reports and records pertaining to credit
                balances, refunds, cash collections, accounts receivable balances,
                discounts, contracts, gross receipt taxes, credit cards, and
                reimbursements. We also consulted with officials from the


                                    14
              Departments of Health and Human Services, Finance, Personnel,
              and Licensing and Consumer Affairs, and the Bureau of Internal
              Revenue, and Lieutenant Governor’s Office.

              Our audit was conducted in accordance with the Government
              Auditing Standards, issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures we considered necessary under the
              circumstances. As part of the audit, we evaluated the internal
              controls related to the administration of Medical Center funds to
              the extent we considered necessary to accomplish the audit
              objective.

              Our audit disclosed significant internal control deficiencies that
              brought into question the accuracy and totality of information
              received and reviewed at the Medical Center. We obtained
              information from the Medical Center that purported to be a
              complete showing of all information relative to contracts and bank
              accounts that we later found to be inaccurate and incomplete.

              Internal control weaknesses identified as a result of our audit are
              discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in these areas.

              Neither Office of Inspectors General has conducted any prior
PRIOR AUDIT   audits on the Medical Center within the past 10 years.
COVERAGE




                                  15
Appendix 2 – Governor of the Virgin Islands Response




                          16
17
18
Appendix 3 – Status of Audit Recommendations


      Finding/
  Recommendation      Status                       Action Required

        1          Resolved, Not   We look forward to receiving written results
                   Implemented.    showing that the actions of the District Board have
                                   been reviewed and the results of the corrective
                                   actions taken.
        2          Resolved, Not   We look forward to receiving evidence of the new
                   Implemented.    District Board’s review of the actions and
                                   performance of senior management and the results
                                   of recommendations made by the Board.
        3          Resolved, Not   We look forward to receiving evidence of the
                   Implemented.    written requirement that instances of fraud must be
                                   referred to the appropriated authorities.
        4          Resolved, Not   We look forward to receiving evidence of revisions
                   Implemented.    made to the Travel and Reimbursement Policy. We
                                   also require written evidence showing that controls
                                   have been established to ensure that compensation
                                   payments are processed in accordance with
                                   Generally Accepted Accounting Principles.
        5          Resolved, Not   We look forward to receiving a copy of the new
                   Implemented.    credit card policy and evidence that inappropriate
                                   payments and credit card charges were recovered.
        6          Resolved, Not   We look forward to receiving a copy of the internal
                   Implemented.    auditor’s first quarterly review and report on the
                                   implementation of the revised refund policy. Also
                                   provide a copy of the results of the review of
                                   possible refunds and ambulance service
                                   overbillings cited in the report.




                                        19
Appendix 4 – Monetary Impact


       FINDING AREA      WASTED          QUESTIONED     OVERSTATED REVENUES
                         FUNDS             COSTS

  EXCESSIVE COMPENSATION PACKAGES

    Subtotal              $1,706,500       $3,292,300

  CREDIT CARDS AND REIMBURSEMENTS

    Subtotal                                $347,600


  UNPROCESSED REFUNDS AND OVERBILLING


    Subtotal                                                         $9,893,400



      Totals              $1,706,500       $3,639,900                $9,893,400




                                    20
     Report Fraud, Waste, Abuse And
             Mismanagement
                       Fraud, waste, and abuse in
                    government concerns everyone:
                   Office of Inspector General staff,
                   Departmental employees, and the
                  general public. We actively solicit
                   allegations of any inefficient and
                  wasteful practices, fraud, and abuse
                related to Departmental or Insular area
               programs and operations. You can report
                   allegations to us in several ways.



By Mail:                     U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 4428 MIB
                             1849 C Street, NW
                             Washington, D.C. 20240

                             Office of the Virgin Islands Inspector General
                             2315 Kronprindsens Gade #75
                             St. Thomas, VI 00802

By Phone:                    24-Hour Toll Free         800-424-5081
                             Washington Metro Area     703-487-5435
                             St. Thomas                340-774-3388


By Fax:                      Washington Metro Area     703-487-5402
                             St. Thomas                340-774-6431


By Internet:                 www.doioig.gov

                             www.viig.org
